V

Filed 8/31/20 P. v. Bridget CA4/3

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
i on opinions not certified for
not been certified for publication

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
THE PEOPLE,
Plaintiff and Respondent,
v.

G056928
(Super. Ct. No. 13CF1025)

ANTHONY EDWARD BRIDGET,

OPINION

Defendant and Appellant.

Appeal from a judgment of the Superior Court of Orange County, John
Conley, Judge. Affirmed in part, reversed in part. Remanded with directions.
Gordon S. Brownell, under appointment by the Court of Appeal, for
Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters, Chief Assistant
Attorney General, Susan Sullivan Pithey, Assistant Attorney General, Paul M.
Roadarmel, Jr., and David A. Wildman, Deputy Attorneys General, for Plaintiff and
Respondent.

i

*

1

In this murder-for-hire case, a jury convicted defendant Anthony Edward
Bridget of conspiracy to commit murder (Pen. Code, §§ 182, subd. (a)(1), 187, subd. (a);
undesignated statutory references are to the Penal Code), first degree murder (§ 187,
subd. (a)), aggravated assault (§ 245, subd. (a)(1)), and false imprisonment by violence
(§§ 236, 237, subd. (a)). As to the murder, the jury found two special-circumstance
allegations true: murder for financial gain, and murder by means of lying in wait
(§ 190.2, subd. (a)(1), (15)). The trial court found prior conviction enhancement
allegations true for four prior strikes (§§ 667, subds. (d), (e), 1170.12, subds. (b),(c)), two
serious felony convictions (§ 667, subd. (a)(1)), and two prior prison tenns (§ 667.5,
subd. (b)).
Defendant was sentenced to an indeterminate term of life without the
possibility of parole for the special-circumstances murder, plus a ten-year enhancement
for the two serious felony priors. A consecutive 25 years to life under the “Three
Strikes” law was imposed for the aggravated assault charge, with an additional 10 years
added for the two serious felony priors. Sentences on the conspiracy and false
imprisonment charges were imposed and stayed under section 654, and the court struck
the two prior prison term enhancements. The court summarized its sentence as “life
without the possibility of parole, plus 25 to life, plus 20 years, determinate sentence.”
Defendant raises four claims on appeal: (1) The trial court prejudicially
erred in its response to the jury’s note stating it was unable to reach a verdict. (2) There
was insufficient evidence to support the lying-in-wait special- circumstance finding. (3)
The aggravated assault and false imprisonment convictions must be reversed because the
statute of limitations for those two crimes had expired before the prosecution was
commenced. (4) The two five-year serious felony enhancements imposed on the
aggravated assault charge were erroneous because that charge is not a qualifying serious
felony.

2

I

J

*

t

K

J

We reject defendant’s first two claims, and find the court’s response to the
jury was not error and that substantial evidence supports the jury’s lying-in-wait finding.
We agree the aggravated assault and false imprisonment convictions must be reversed
because the statute of limitations for those charges expired long before the prosecution in
this case was commenced. We need not decide whether the aggravated assault was a
serious felony because, with that conviction set aside, the two five-year enhancements
imposed on that charge must be vacated as a matter of law. The judgment is affirmed in
part, and reversed in part.
FACTS
Because defendant raises a sufficiency of the evidence claim as to the jury’s
lying-in-wait special-circumstance finding, we lay out the underlying facts in some detail,
doing so in the light most favorable to the jury’s verdicts. (People v. Abilez (2007) 41
Cal.4th 472, 504.) Additional facts relevant to the specific issues defendant raises on
appeal are found in the discussion section below.
In 2004, the Girgis family consisted of husband Magdi, wife Ariet, and
their two sons; 22-year-old Richard and 17-year-old Ryan.1 They all lived together in
their Westminster home. Richard used a downstairs bedroom, while Ryan’s bedroom
was upstairs, as was his parents’ master bedroom.
One February night, Magdi picked up Ryan after work. He had called his
mother to pick him up, but she had said, “Your dad hit me.” When Ryan got home,
Ariet’s eye was swollen and her nose appeared injured as well; she was crying. Later that
night, Richard took Ariet to the hospital.
The next day, Ryan found out Magdi had been arrested and a restraining
order had been issued. Magdi moved to an apartment complex he owned with his brother

For clarity we refer to the family members by their first name; we mean no
disrespect.
3

I

j

t

i

♦

i

Adel in Long Beach. Ryan had “zero contact” with his father after he moved out, and he
did not recall Magdi ever coming back to the house after that.
In the days following the incident, Ryan was “really contused” and “ was
worried about [his] safety, [and his] mom’s safety.” Since Magdi controlled the finances,
Ryan was also worried about what would happen to Ariet with Magdi out of the house.
Ariet too was scared. She wanted to leave, but was tom because it was Ryan’s last year
of high school.
Richard talked with Magdi after the domestic violence incident. Magdi was
very upset about the whole situation and felt that he was being treated unfairly. He was
worried the domestic violence case would cause him to lose his respiratory therapist
license. Money was very important to Magdi and he was also concerned he would lose
money to Ariet if they were to divorce. After the August 2004 preliminary hearing in the
domestic violence case, at which Ariet testified, Magdi told Richard that he would be
better off if he just killed Ariet.
Magdi’s brother Adel said that when he and Magdi were living together in
Long Beach, he became concerned for Ariet’s safety because Magdi had “mentioned that
he might think of getting rid of [Ariet] or killing her if she does something to hurt him.”
Adel sent two anonymous letters to the Westminster Police Department, stating his
concern for Ariet and for the prosecutor in the domestic violence case because Magdi had
also made statements threatening to kill the deputy district attorney prosecuting his case.
On September 28, 2004, about two months after the preliminary hearing in
the domestic violence case, Ariet came home from work at 5:00 or 6:00 p.m. Ryan
thought she went to bed around 9:30 p.m. Richard was not at home that night and was in

2

In February 2005, on the day set for trial, Magdi pleaded guilty to charges of
felony domestic violence and attempting to prevent a witness from testifying while
released on bail. Ariet was murdered five months before that plea was entered.
4

t

f

a

t

•y

§

%
i

*

*

Long Beach visiting a girlfriend and a work friend. He was trying to stay up all night to
prepare for his new nightshift job.
About 10:30 p.m., after Ariet was asleep, Ryan snuck out. Ryan’s bedroom
was about 20 feet down the hall from his mother’s master bedroom. Ryan was not
supposed to go out at night, so he left through a sliding back door. He was unable to lock
that door from the outside and would leave it open for himself. However, the front door
was always locked. There was also a spare key hidden in a small box on the side of the
house by the garage. It fit the front door lock and a side garage door lock.
Ryan got home between 1:00 and 1:30 a.m. He sat outside in his friend’s
car and they talked for a while. Eventually, he went into the house through the sliding
back door. The house was dark except for a light on the stove. Everything in the house
and the neighborhood “looked normal.” Ryan went upstairs to his bedroom, listened to
some music, and thought he fell asleep about 1:30 a.m. His mother’s bedroom door was
closed when he got home. Except for light coming in from a streetlight through a small
gap in the vertical blinds on his window, Ryan’s room was dark.
At about 3:30 a.m., Ryan was awakened when he heard a door fling open
and felt a gloved hand go over his mouth. It was still dark in the bedroom. Ryan, who
had been sleeping on his stomach, could feel the intruder’s body on top of him. In an
attempt to get away, Ryan rolled over, hit the nightstand, and knocked over a lamp. He
was able to get up and started swinging at the intruder. The two wrestled as Ryan was
“screaming for Richard and my mom . . . just yelling and screaming for my life.”
The man was wearing a beanie, which covered his whole head, and dark
clothes which fully covered his body. The man “wrestled [Ryan] down,” and then a
second person, who appeared to be a very tall man wearing dark clothes, came into the
room. Ryan, who was “really frantic at that moment,” remembered this second man
threatening his life. He did not remember exactly what words the man used, but he
clearly implied that he would kill Ryan if he did not stop struggling.
5

*

f

i

f

Meanwhile, the first man used duct tape on Ryan’s hands behind his back
while Ryan was lying on the floor with his face in the carpet. Ryan’s head was near the
doorway, and he could see down the hallway. He then saw his mother come down the
hall, “really, really frantic,” telling the men “‘take anything you want, take anything you
want.’”

Ryan said the second man turned around and “then grab[bed] my mom in a
bearhug, and then ma[de] their way towards the master bedroom.” The first man ordered
Ryan into the bedroom closet after Ryan had pleaded something to the effect of “please
don’t kill me.” He replied, “I know your circumstances. I know what you’re going
through. I’m not going to kill you.”
The man then “pretty much” lifted Ryan up and walked him into the closet,
where Ryan fell backwards. Ryan was partly inside, lying on his back with his feet
hanging out the half-closed closet door. The man then used duct tape on his ankles and
his mouth. Because the closet door was not completely shut, he could see the man sitting
On the edge of his bed, facing Ryan and the closet. The man took off his gloves for a
moment and reached for a shoe. He took the shoestring out of the shoe, told Ryan to turn
over, and then tied Ryan’s wrists with it.
About that same time, Ryan heard his mother scream and heard something
“like cuts of fabric,” but he did not know where the sound was coming from. Ryan
remembered then hearing the first man ask “‘Where are you at Cool G’ or ‘Homey G.’ or
‘Yo G.’” The second man replied, “I’m downstairs.”
Ryan estimated he was in his bedroom with the first man for “no more than
10 minutes.” He did not see or hear the man leave the bedroom, but he “heard like a car
with a muffler take off. So I associated the two with each other.” Neither man ever
asked Ryan about money, jewelry, or drugs.
Ryan removed the duct tape and shoelace and freed his legs. He grabbed
his cell phone and fled to get help because he did not know who was still in the house.
6

*
k

t

4

*

*

1j

He called 911 and reported what had happened. He told the dispatcher he saw the face of
one of the men, who was wearing a black beanie and whom he described as “really, really
dark skinned.” He thought the second man’s name was “something Gee,” which is what
the first man called him.3
After speaking with the 911 dispatcher, Ryan called Richard and then his
father. Richard immediately drove to the house and, when he got there, he saw a lot of
police officers. Ryan did not see his father. A few days later, Ryan went back to the
house with police and did a walkthrough. Nothing was missing or stolen. The parties
stipulated to the crime scene processing. Photographs showed the bed in Ariel’s master
bedroom. There was a cut in the middle of the sheets that went down into the mattress;
there was blood on the bed and blood spatter on the wall. Ariet’s body was lying on the
floor next to the bed, covered in blood. Police found no signs of forcible entry into the
house.
The forensic pathologist testified Ariet sustained “a series of multiple
extensive slashing type sharp injuries on her head, face and neck.” She was also stabbed
on the left side of her abdomen and had three stab wounds on her left flank region
towards the back. The neck injuries were “the most extensive,” causing a “near
complete . . . decapitation of the head.” There was a complete severing of Ariet’s jugular
vein on the left side of her neck and the carotid artery on the right side of her neck. Both
wounds would have led to “extensive and massive bleeding . . . [a]nd those injuries by

3

Several years later, Ryan recognized defendant as the first intruder when he
attended defendant’s arraignment. Ryan said he knew “[rjight away” that he was the first
man. He said he felt anxiety, paranoia, flashbacks and “everything you could think of’
when he saw defendant. Ryan also remembered hearing defendant’s voice at the
arraignment and “couldn’t believe it.” At trial, Ryan also positively identified defendant
as the first man. Ryan acknowledged he had been told by several members of the
prosecution team that defendant was the person who had tied him up in his room. But he
said no one showed him any photograph of defendant or told him how to testify.
7

«
/

*

!•
»

1

4

4

\
»

themselves would be enough to simply cause the death in a fairly rapid fashion.” The
immediate cause of death was exsanguination.
A forensic scientist testified about the procedures and protocols of
collecting forensic evidence, including photographs, fingerprints, swabs of biological and
DNA evidence, and the handling of that evidence. The morning after the murder, he
went to the Westminster Police Department along with another forensic scientist and met
with Ryan. They took photographs and collected swabs from Ryan’s mouth, face,
fingernails, and teeth. The duct tape from Ryan’s wrist and neck was collected, as was
Ryan’s clothing and the shoelace. DNA swabs were taken from the shoelace.
In October 2012, a DNA profile taken from the shoelace registered a “hit”
on a national DNA database; the person associated with it was the defendant. On January
29, 2013, a fresh swab was collected from the defendant. After the laboratory received
that swab and tested it, it was determined that the major DNA profile on the shoelace
sample was consistent with Ryan and the minor profile was consistent with the defendant.
The prosecution’s DNA expert testified that the frequency of choosing an individual at
random who could not be excluded as the minor contributor of that shoelace sample was
“estimated to be more rare than 1 in 1 trillion unrelated individuals.”
On January 30, 2013, two undercover police officers met with Magdi at the
house where Ariet was murdered. They told Magdi they knew he had paid a friend to kill
his wife in the house, and they wanted $5,000 to keep their mouths shut. Magdi told the
officers he did not know what they were talking about, but he took a piece of paper with
the officer’s telephone number on it when it was offered. When Magdi left, police
followed him to Long Beach, where he went to a payphone and made two calls.
The following day Magdi called the undercover officer and said, “Are you
the guy?” The officer answered, “Yes.” Magdi asked, “What’s the problem my friend?”
The officer responded, “The problem is that my friend took care of a little business, and
we’re just trying to get paid to keep it hush.” Magdi replied, “I thought you got paid
8

l

r

4

everything.” The officer said, “[W]e got paid everything, but the police are sniffing
around.” Magdi attempted to negotiate the price down from $5,000. He asked, “Well,
how am I going to trust you?” and the officer replied, “Because I have the information.”
Magdi eventually agreed to pay $1,500 and to meet the undercover officers the next day
in Long Beach.
The next day, the officers met with Magdi. Magdi handed over an
envelope containing $1,500, and said, “Ail right, my friend.” The officer replied, “Is
everything good?” Magdi said, “Yeah.” As they were “parting ways,” the officer asked
Magdi, “What the fuck did your wife do so mother fucking bad to you to make you want
to kill her ass? Jesus.” Magdi responded, “See you, my friend, [if s] at peace.” Magdi
was then arrested. Charges were filed against defendant on April 2, 2013.4
DISCUSSION
/. The Trial Court’s Response to the Jury's Note Was Not Error
A. Background
After less than a day of deliberations, which included two intervals of
testimony being read back, the jury sent the trial court a message stating, “Unable to
come to a decision. We are tied 6/6.”
The court’s proposed response to the jury was: “The jury has sent out a
message, ‘Unable to come to a decision. We are tied 6/6. [’] ffl] Including jury selection
this trial took about 7 days. The jury has deliberated for only about 5!4 hours at this
point, less than a day. Some of that time was in hearing testimony re-read. This is a
relatively short period of deliberation, in the court’s view. [^[] If a jury becomes

4

Before the trial in this case, Magdi was separately prosecuted and convicted of
conspiracy to commit murder and first degree murder with special-circumstance
allegations of murder for financial gain and to prevent testimony. His conviction was
affirmed in 2017. (People v. Girgis (Apr. 27, 2017, D070461) [nonpub. opn.].)
9

%

4

i

i

4

hopelessly deadlocked, the court would have to declare a mistrial. [|] The court is asking
the jury to continue its deliberations.”
Defense counsel asked the court to consider adding additional language
similar to that found in an unspecified CALJIC instruction to tell the “jurors not to
change their vote for the sake of a verdict!” The court declined, stating, “I think you’re
just adding a little argumentative twist to the instruction.” The court sent its proposed
response to the jury unchanged, and the jury returned its verdicts the following day.
B. The Court Did Not Err by Refusing to Add Language to Its Response
Defendant contends the trial court erred by declining defense counsel’s
request to add additional language to the jury response to remind “jurors not to change
their vote for the sake of a verdict.” We find no error.
Defense counsel did not submit or request a particular jury instruction,
whether CALJIC, CALCRIM, or a pinpoint instruction of her own design.5 Instead, she
merely requested “language” be added to the court’s response to the jury’s note. The
court observed, “Initially, both sides agreed” to the court’s response to the jury, but then
defense counsel “wanted to add something to it.” The court rejected her suggestion,
finding it was “just adding a little argumentative twist” to the proposed response.
As a result, defendant slightly mischaracterizes the trial court’s ruling as a
refusal “for a correct instruction.” The court merely responded to a jury question; it did
not “instruct” the jurors to do anything other than to continue their deliberations.
Moreover, defendant cannot reasonably assign error by simply referring to an unspecified
jury instruction that could have been given, but was never requested. Thus, defendant’s
assertion that CALCRIM No. 3551 “would have been an excellent instruction to give in
response to the jury’s note,” and that CALJIC 17.40 “correctly states the law,” is
misplaced. Defendant did not request either instruction be given, and the court had no
It is only on appeal that defendant points to the jury instructions his trial counsel
was presumably referring to. (See CALCRIM No. 3551 & CALJIC 17.40.)
10

4

►

I

P

i

*
*

1

v

sua sponte duty to give them. (See CALCRIM No. 3551, Bench Notes [“There is no sua
sponte duty to instruct a deadlocked jury on continuing its deliberations”]; Cal. Rules of
Court, rule 2.1036(a) [“After a jury reports that it has reached an impasse in its
deliberations, the trial judge may . . . , advise the jury. . .

(Italics added.)].) Although it

might be better to use such an instruction when a jury indicates it is deadlocked,
defendant provides no authority suggesting the court here was required to add any
“language” to its brief response. We find the court adequately told the jury they should
continue deliberating, and not feel rushed to reach a verdict.
C. There Was No Allen Error’
Defendant slightly changes tack, and focuses on one sentence from the trial
court’s response to the jury—“If the jury becomes hopelessly deadlocked, the court
would have to declare a mistrial”—and contends this is “the functional equivalent of an
iAllen charge,’ which the California Supreme Court has forbidden for the past four
decades.” We are not persuaded.
In Allen, the United States Supreme Court approved a jury charge to a
deadlocked jury that encouraged the minority jurors to reexamine their views in light of
the views expressed by the majority, noting that a jury should remember that the case
must at some time be decided. {Allen, supra, 164 U.S. at pp. 501-502.) In People v.
Gainer (1977) 19 Cal.3d 835 {Gainer), disapproved in part by People v. Valdez (2012) 55
Cal.4th 82, 163 {Valdez), our Supreme Court disagreed with Allen in two respects. First,
it found “the discriminatory admonition directed to minority jurors to rethink their
position in light of the majority’s views” was improper because, by telling minority jurors
to consider the majority view, the instruction encouraged jurors to abandon a focus on the
evidence as the basis of their verdict. {Gainer, at pp. 845, 851.) Second, a direction to
the jury they “‘should consider that the case must at some time be decided,’” was

6 Allen v. United States (1896) 164 U.S. 492 {Allen).
11

•i

>

inaccurate because of the possibility the case might not be retried. (Id. at pp. 851-852.)
In other words, it is improper to instruct the jury in language that suggests that, if they
fail to reach a verdict, the case necessarily will be retried. (Id. at p. 852.) The court
“therefore [held] it is error for a trial court to give an instruction which either (1)
encourages jurors to consider the numerical division or preponderance of opinion of the
jury in forming or reexamining their views on the issues before them; or (2) states or
implies that if the jury fails to agree the case will necessarily be retried.” (Ibid) Here,
however, the trial court’s response did neither.
In People v. Bryant, Smith and Wheeler (2014) 60 Cal.4th 335 (Bryant), the
California Supreme Court revisited the issue of whether a trial court’s actions and
instructions to a deadlocked jury were improperly coercive. Referring to Gainer, the
court “explained that ‘coercive’ actions are those involving ‘a judicial attempt to inject
illegitimate considerations into the jury debates [and] appeal to dissenting jurors to
abandon their own independent judgment of the case against the accused,’ by placing
‘excessive pressure on the dissenting jurors to acquiesce in a verdict.’ [Citation.] In
assessing the effect of the trial court’s actions, the question is ‘whether the instructions
tend[ed] to impose such pressure on jurors to reach a verdict that we are uncertain of the
accuracy and integrity of the jury’s stated conclusion. This determination of whether the
instructions ‘operate[d] to displace the independent judgment of the jury in favor of
considerations of compromise and expediency’ [citation] is perhaps best characterized as
requiring a generalized assessment of the potential effect of a given instruction on the fact
finding process, rather than as an attempted inquiry into the actual volitional quality of a
particular jury verdict.’” (Bryant, atpp. 460-461.)
Here, the jury told the court it was evenly split six to six. The court’s
response was neutral, was not directed at either faction, and did not suggest or imply how
the jurors should resolve their split. The first Gainer factor is absent.

12

Similarly, the court did not tell the jurors that “the case must at some time
be decided.” Instead, the court told the jury only that if they are deadlocked, the court
will “have to declare a mistrial.” Nothing in this isolated phrase can reasonably be seen
as trying to coerce the jury into returning a verdict. Rather, the response simply
reminded the jurors of their duty to attempt to reach an agreement, as evidenced by the
very next sentence: “The court is asking the jury to continue its deliberations.” (See
Bryant, supra, 60 Cal.4th at p. 462 [“the court did not violate the Gainer principles. It
merely told the jurors to deliberate further”]; cf. People v. Miller (1990) 50 Cal.3d 954,
994 [“‘[t]he trial judge could reasonably conclude that his direction of further
deliberations would be perceived as a means of enabling the jurors to enhance their
understanding of the case rather than as mere pressure to reach a verdict on the basis of
matters already discussed and considered’”].) Therefore, the second Gainer factor is also
absent.
Put simply, there is nothing here to reasonably suggest the trial court’s brief
response “impose[d] such pressure on jurors to reach a verdict that we are uncertain of
the accuracy and integrity of the jury’s stated conclusion.” {Bryant, supra, 60 Cal.4th at
p. 461.) None of the improper coerciveness condemned by Gainer was inherent in the
trial court’s response to the jury’s note. Any potential effect of this brief response on the
fact finding process was de minimis. (See People v. Butler (2009) 46 Cal.4th 847, 883884 {Butler).)
D. Even Assuming Allen Error, It Was Harmless
Here, the jury was instructed with CALCRIM No. 3550, which in part told
the jurors: “It is your duty to talk with one another and to deliberate in the jury room.
You should try to agree on a verdict ifyou can. Each ofyou must decide the case for
yourself but only after you have discussed the evidence with the other jurors. Do not
hesitate to change your mind if you become convinced that you are wrong. But do not
change your mindjust because otherjurors disagree with you. [^|] Keep an open mind
13

A

V

*

*
»

and openly exchange your thoughts and ideas about this case. Stating your opinions too
strongly at the beginning or immediately announcing how you plan to vote may interfere
with an open discussion. Please treat one another courteously. Your role is to be an
impartial judge of the facts, not to act as an advocate for one side or the other.” (Italics
added.)
While not identically phrased, the language of CALCRIM No. 3550
implicitly told the jury exactly what defendant’s trial counsel had asked for: Do not
change your vote for the sake of a verdict. This instruction unequivocally told the jurors
they should not feel compelled to reach a verdict merely because the other jurors
disagreed, and that each was to decide for him or herself. Similarly, the jurors were not
told they must reach a verdict; rather, only “if you can.” “[T]he initial jury instructions
adequately conveyed that jurors did not need to reach a verdict, and that they should not
acquiesce in a verdict with which they did not agree. The trial court therefore did not err
in not offering supplemental instructions when it emerged that the jury’s verdict was not
unanimous.” (People v. Reed (2018) 4 Cal.5th 989, 1016.) Defendant’s suggested
i

additional “language” was superfluous in light of CALCRIM No. 3550. (Cf. Butler,
supra, 46 Cal.4th at pp. 883-884 [other instructions informed jury in a way that avoided
any Gainer error].)
Moreover, it is not reasonably likely the jurors ignored this instruction and
instead considered the court’s mention of a mistrial as pressure to reach a verdict at all
costs. (Cf. Valdez, supra, 55 Cal.4th at p. 164 [no prejudice where trial court emphasized
that the jurors ultimately had to reach their own conclusions].) Prejudicial error occurs
“only if the reviewing court, considering ‘all the circumstances under which the charge
was given,’ finds it ‘reasonably probable’ the defendant would have obtained a more
favorable result absent the error.” (Ibid.) Any supposed error in the court’s isolated use
of the term “mistrial” here does not make such a result reasonably probable. If error,
therefore, it was harmless under any standard.
14

;

.

♦

i

2. Substantial Evidence Supports the Jury's Lying-in- Wait Finding
Defendant next contests the sufficiency of the evidence supporting the
lying-in-wait special circumstance. We find substantial evidence supports the jury’s
finding.
A. Standard ofReview
‘“To determine whether the evidence supports a special circumstance
finding, we must review “‘the entire record in the light most favorable to the judgment to
determine whether it discloses evidence that is reasonable, credible, and of solid value
such that a reasonable jury could find’” the special circumstance allegation true “‘beyond
a reasonable doubt.’” [Citation.]’” (People v. Woodruff (201$) 5 Cal.5th 697, 774;
Woodruff, cf. Jackson v. Virginia (1979) 443 U.S. 307, 318-319 [“[T]he relevant question
is whether, after viewing the evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt”].) Our role “is a limited one.” (People v. Smith (2005) 37 Cal.4th 733,
738.)

44(44

[W]e must view the evidence in the light most favorable to the People and must

presume in support of the judgment the existence of every fact the trier could reasonably
deduce from the evidence. [Citation.]

99 9 99

(Id. at pp. 738-739.) We “must accept logical

inferences that the jury might have drawn from the circumstantial evidence.” (People v.
Maury (2003) 30 Cal.4th 342, 396 (Maury).) If more than one inference may reasonably
be drawn from the evidence, we accept the inference supporting the judgment. (People v.
Manibusan (2013) 58 Cal.4th 40, 87.)
Similarly, “[w]e resolve neither credibility issues nor evidentiary conflicts;
we look for substantial evidence. [Citation.]” (Maury, supra, 30 Cal.4th at p. 403.) It is
the jury that weighs the evidence, assesses witness credibility, and resolves conflicts in
the testimony. (People v. Sanchez (2003) 113 Cal.App.4th 325, 330.) “A reversal for
insufficient evidence ‘is unwarranted unless it appears “that upon no hypothesis whatever
is there sufficient substantial evidence to support”’ the jury’s verdict. [Citation.]”
15

t

i

9

4

*
S

*

1

4

(People v. Zamudio (2008) 43 Cal.4th 327, 357.) Simply put, an appellant “bears an
enormous burden”'to prevail on a sufficiency of the evidence claim. (Sanchez, at p. 330.)
B. Analysis
The “lying-in-wait. . . special circumstance requires

4 U4

an intentional

murder, committed under circumstances which include (1) a concealment of purpose, (2)
a substantial period of watching and waiting for an opportune time to act, and (3)... a
surprise attack on an unsuspecting victim from a position of advantage.. ..

555 >

[Citation.]” (Woodruff, supra, 5 Cal.5th atp. 774.) Here, defendant challenges the
evidence supporting the first two elements: concealment of purpose, and substantial time
of watching and waiting to act.
Our Supreme Court has explained the elements of the lying-in-wait special
circumstance as follows:

The element of concealment is satisfied by a showing “‘that

a defendant’s true intent and purpose were concealed by his actions or conduct. It is not
required that he be literally concealed from view before he attacks the victim.

5 if *

[Citation.]”’ [Citation.] As for the watching and waiting element, the purpose of this
requirement ‘is to distinguish those cases in which a defendant acts insidiously from
those in which he acts out of rash impulse. [Citation.] This period need not continue for
any particular length ‘“of time provided that its duration is such as to show a state of
mind equivalent to premeditation or deliberation.’” [Citation.]’ [Citation.] ‘The factors
of concealing murderous intent, and striking from a position of advantage and surprise,
“are the hallmark of a murder by lying in wait.” [Citation.]’ [Citation.]” (People V.
Mendoza (2011) 52 Cal.4th 1056, 1073, fn. omitted (Mendoza),)
1. Concealment ofPurpose
Defendant contends there was no evidence either he or his partner
concealed their purpose from Ariet. We disagree. “‘The element of concealment is
satisfied by a showing “‘that a defendant’s true intent and purpose were concealed by his
actions or conduct. It is not required that he be literally concealed from view before he
16

A

t

4

t

attacks the victim.

15??? ?

(Woodruff, supra, 5 Cal.5th at p. 775.) “The concealment, in that

sense, “‘is that which puts the defendant in a position of advantage, from which the
factfinder can infer that lying-in-wait was part of the defendant’s plan to take the victim
by surprise.’” [Citation.]” {People v. Johnson (2016) 62 Cal.4th 600, 632.) The key
word in this context is plan.
Defendant argues that because Ariet was awakened and aware of the
intruders just before she was killed, the concealment of purpose element was lacking.
Not so. Defendant offers no authority suggesting the concealment of purpose must last
up until the actual coup-de-grace. As discussed, the focus instead is on the concealment
of a defendant’s'“true intent and purpose,” i.e., the planning and concealed execution of
that plan, that is relevant, and not how the final results played out.
Here, the jury could reasonably infer the plan was to wait until everyone in
the house was asleep—literally unaware of the intruders’ “true intent and purpose”—then
surreptitiously enter, immobilize Ryan, and take Ariet by surprise. The fact the plan
failed because Ryan’s initial struggles with defendant awakened his mother does not
change what defendant and his cohort did to conceal their intent and purpose to take their
victim by surprise and kill her in her sleep.
2. Watching and Waiting
There is no fixed minimum time for the watching and waiting requirement.
{Mendoza, supra, 52 Cal.4th at p. 1073.)

The precise period of time is . .. not

critical,”’ so long as the period of watchful waiting is “‘substantial.

? ????

(See People v.

Moon (2005) 37 Cal.4th 1, 23 [the defendant’s testimony he waited 90 seconds after the
victim returned home before killing her was sufficient evidence of lying in wait under the
special-circumstance allegation].) Thus, “a few scant minutes ... can suffice.” {Ibid.)
The underlying purpose of the watching and waiting element is to establish
a state of mind equal to premeditation and deliberation and to distinguish those cases in
which a defendant acts insidiously from those in which he merely acts out of rash
17

I
t’

impulse. {People v. Stevens (2007) 41 Cal.4th 182, 202.) This is not a case of “rash
impulse.”
Here, the jury could reasonably conclude that defendant and his partner
were waiting outside the residence before coming inside at 3:30 a.m. There were no
signs of forced entry, so it is reasonable to infer the crime partners either obtained a key
from Magdi, knew of the spare key, or knew the back door was unlocked. Defendant and
his partner got to the upstairs floor where they expected Ariet and Ryan would be asleep.
This reasonably supports a jury conclusion of “watchful waiting.” (See People v.
Michaels (2002) 28 Cal.4th 486, 516 [“Waiting and watching until a victim falls asleep
before attacking is a typical scenario of a murder by means of lying in wait”]; People v.
Hardy (1992) 2 Cal.4th 86, 164 [“The jury could reasonably infer that they chose this
time of night because it could be expected the victims would be asleep”]; People v. Ruiz
(1988) 44 Cal.3d 589, 615 [same].)
Defendant tries to distinguish these cases by pointing to individual factual
dissimilarities or pointing out there was additional evidence in those cases such as a
confession. However, this myopic view misses the signal importance of one very
probative fact that is present in this case: defendant’s primary role in this murder plot
was to ensure Ryan did not interfere with what the killers had been hired to do—quickly
and quietly kill Ariet. The basic plan was to wait until late at night, when Ariet was
asleep, enter the house, slip into her bedroom without her waking, kill her, and leave.
But Ryan created a serious complication.
Whether Ryan’s return at 1:30 a.m. was unexpected, or defendant and his
partner were waiting for him to come home and go to bed, they were aware Ryan lived in
the house and he had to be dealt with before they could complete their murder-for-hire
7 After the intruders left, Ryan heard a car with a “loud muffler” start up and drive
away, pointing to an inference they had arrived together.

18

r

t

s

l

\

4

scheme. That meant waiting until Ryan was also asleep, entering his bedroom first,
neutralizing him, and only then proceeding with the planned killing of Ariet without
interference. Defendant’s assurances to Ryan that he was not going to be killed shows
they had planned beforehand what to do with Ryan. Defendant’s statement, “I know your
circumstances. I know what you’re going through,” supports an inference that the killers
had been informed about the living arrangements at the house—perhaps by Magdi—and
had needed to make contingency plans for what to do if Ariet was not alone. This
required both concealment and waiting until both Ariet and Ryan were asleep.
Significantly, defendant came equipped with the duct tape he would use to
immobilize Ryan while his cohort accomplished the planned murder—again showing
premeditation and deliberation. Although the killer threatened Ryan and told him he
would be killed if he did not stop resisting defendant’s attempts to subdue him, defendant
assured Ryan he would not be killed, stating “I know your circumstances. I know what
you’re going through. I’m not going to kill you.” This is all consistent with a carefully
preplanned effort, not a “rash impulse” killing. And in order to carry out their plan, the
killers had to watch and wait for the most opportune moment—when both Ariet and Ryan
were asleep.
However, at this point the plan started to go awry. Awakened by Ryan’s
screaming, Ariet came down the hallway, telling the intruders to “take anything you
want.” The killer grabbed Ariet in a “bearhug” and took her back to her bedroom where
she was killed. Defendant finished immobilizing Ryan with the duct tape and Ryan’s
shoelace, placed him in the closet, and watched over him while the killer completed his
grim task and the plan was completed. Defendant suggests this unexpected event negates
both concealment of purpose and watchful waiting, but we disagree. As noted above, this
unplanned incident did not change what defendant and his cohort did to conceal their
intent and purpose to take their victim by surprise and kill her in her sleep. Similarly, it

19

4

l

\

i,

did not affect the fact they waited until both Ariet and Ryan were asleep before beginning
their fatal intrusion.
The evidence amply supports an inference that, in order to neutralize Ryan,
the intruders had to wait until he too was asleep so as to quickly take full advantage of the
situation before putting the ultimate plan into motion. From this, the jury could find
defendant and his cohort spent sufficient time watching and waiting to show a state of
mind akin to premeditation and deliberation, and inconsistent with “rash impulse.”
Nothing more is required.
The two contested elements of the lying-in-wait special circumstance are
supported by substantial evidence.
3. The Statute ofLimitations Bars the Assault and False Imprisonment Convictions
Defendant next claims his convictions for the aggravated assault and false
imprisonment of Ryan must be reversed because criminal proceedings on those charges
did not commence until after the relevant statute of limitations had expired. We agree.
The pleadings in this case alleged the charged crimes were committed on or
about September 29, 2004. A felony complaint was filed on April 2, 2013, and an arrest
warrant was issued for defendant on April 3, 2013. Defendant was arraigned on the
complaint on June 21, 2013. Finally, the information was filed on November 17, 2014.
Because both false imprisonment by violence and aggravated assault are
offenses punishable by imprisonment in the state prison for less than eight years, the
statute of limitations for both offenses is the same: three years.8 (§§ 18, subd. (a), 237,
subd. (a), 245, subd. (a)(1), 801.) The limitation period is determined by the maximum
punishment for the offense; enhancements, including for prior convictions and strikes, are
disregarded. (§ 805, subd. (a).) As a result, prosecution for these two offenses had to
Prosecution for conspiracy to commit murder and murder is not limited, and
may be commenced at any time. (§§ 182, subd. (a), 190, subd. (a), 799, subd. (a).)

20

4

4

.4

*

i
Y

i
i

4

f

have been “commenced” within three years of their commission, i.e., before October 1,
2007.9 (Ibid.; see People v. Zamora (1976) 18 Cal.3d 538, 574 (Zamora) [“[Statutes of
limitation are to be strictly construed in favor of the accused”].)
In felony cases, “prosecution for an offense is commenced when any of the
following occurs: [K] (a) An indictment or information is filed. [H] ... [H] (c) The
defendant is arraigned on a complaint that charges the defendant with a felony. [If] (d)
An arrest warrant or bench warrant is issued .... ” (§ 804.)10 The earliest qualifying
event here was when the arrest warrant issued for defendant on April 3, 2013—more than
eight years after the offenses were committed.
The parties agree that nothing in the record shows defendant waived the
statute of limitations as to the assault and false imprisonment charges. However, nothing
indicates defendant ever raised a statute of limitations claim.

Even so, the parties also

agree that when the charging document on its face shows that an offense is time-barred,
“a defendant may not inadvertently forfeit the statute of limitations and be convicted” of
such an offense. (People v. Williams (1999) 21 Cal.4th 335, 338 (Williams); cf. Zamora,
supra, 18 Cal.3d at p. 547 [“a conviction, even if based on a plea of guilty, is subject to

9

September 30, 2007 was a Sunday.

Prior to 2007, section 804, subdivision (c) provided that prosecution
commenced when “[a] case is certified to the superior court” following a preliminary
hearing. As a result, arraignment on a felony complaint did not commence an action. In
2009, subdivision (c) was slightly altered to allow for “commencement” to include the
arraignment on the felony complaint. (Stats. 2008, ch. 110, § 1.) Neither version of
subdivision (c) aids the prosecution here.
At arraignment on both the complaint and the information, defendant
“reservefd] all motions,” and “invoke[d] his/her state, federal and constitutional rights.”
We need not decide whether this sufficiently preserved a statute of limitations claim
because, as discussed, it may be raised in the first instance on appeal. However, it
strongly suggests there was no waiver of the statute of limitations.
21

*

t

*

k

*

Cj

►

{

9

collateral attack if the charge was originally barred by the applicable limitation period”].)
The issue is therefore properly before us.
The Attorney General speculates “the present record may be incomplete,”
and we should remand this matter “to the trial court for a hearing to determine whether
the statute of limitations was tolled or waived” as to these two charges. (Italics added.)
We are not persuaded.
First, the record in this matter is quite complete, and the Attorney General
offers nothing to suggest what could possibly be missing or where it would be found.
Because the parties agree there is nothing in the record showing a waiver, remand for
further inquiry on this point would be nugatory.
Second, there are no statutory tolling provisions that could be applied to
these two offenses. (See § 803 [the exclusive list of the only offenses and factual
situations where criminal statutes of limitations are tolled].) While the Attorney General
opines the record “may” be incomplete, he does not ever mention section 803, nor discuss
how a more “complete” record would or could change the ineluctable conclusion that the
statute of limitations for these two offenses was not tolled and had expired when this
action was commenced.
Third, “at trial the prosecution bears the burden ofproving that the charged
offense was committed within the applicable period of limitations.” (People v. Lopez
(1997) 52 Cal.App.4th 233, 248, italics added.) Similarly, “[t]he People also bear the
[same] burden to hold a defendant to answer before a magistrate .... ‘[I]n order to hold
a defendant over for trial the People bear the burden of producing evidence . . . which
demonstrates that there is probable cause to believe that the prosecution is not barred by
the statute of limitations.’ [Citation.]” (Id. at pp. 248-249.) There is no such proof
anywhere in the appellate record.
Finally, “the accusatory pleading must allege [f]acts showing that the
prosecution is not barred by the statute of limitations.” (Zamora, supra, 18 Cal.3d at p.
22

>

t

I

f

/

»

i

*

\

564, fn. 26, first italics added; People v. Crosby (1962) 58 Cal.2d 713, 724-725 [if a
period of time in excess of that permitted by the statute has elapsed since the commission
of the offense, further facts must be alleged to show the People’s entitlement to rely on
the tolling doctrine].) There are no such allegations in the pleadings in this case.
The Attorney General cites Williams, where the Supreme Court did remand
a matter for an inquiry into whether the statute of limitations was either waived or tolled.
(Williams, supra, 21 Cal.4th atp. 345.) However, Williams is inapposite.
In Williams, the defendant was charged with perjury (Williams, supra, 21
Cal.4th at p. 338), an offense with a three year statute of limitations, but one potentially
subject to tolling based on the date of discovery. (See §§ 118, 126, 801, 803, subd.
(c)(2).) The information in that matter was filed more than three years after the alleged
date of offense, but it contained no language relevant to the statute of limitations.
(Williams, at p. 338.) However, the defendant did not ever raise the issue.
On review, the core question before the Supreme Court was “whether ‘the
statute of limitations in a criminal case is an affirmative defense which is forfeited if not
raised before or during trial.”’ (Williams, supra, 21 Cal.4th at p. 339.) After concluding
it was not, the court moved on to address whether the statute of limitations had expired in
the case. However, it found the record was insufficient to resolve that question and
therefore affirmed the Court of Appeal’s decision to remand the matter to the trial court
to make that determination. (Id. at pp. 338, 347.)
The court observed that in the Court of Appeal, “the Attorney General
asserted two facts not alleged in the information that, if true, would make the action
timely: (1) an arrest warrant, which ‘commenced’ the prosecution [citation], issued
before the three years expired; and (2) the prosecution commenced within three years
after the crime was first discovered. The Court of Appeal was unable to determine from
the appellate record whether the action was, in fact, time-barred, and it remanded for the
trial court to make that determination.” (Williams, supra, 21 Cal.4th at p. 339.) The
23

1

*

C>

k

\

t

•i

<

i

4

Supreme Court “agree[d] on the need for an adequate record,” and found “[t]he record
here is utterly inadequate. No reviewing court can meaningfully assess whether the
statute of limitations had expired .... ” (Id. at p. 344.)
Williams does not assist the prosecution here because our record is more
than adequate to make that assessment. We know the pleadings do not allege facts to
counter the otherwise facially apparent lapse of the statute of limitations for these two
offenses. We also know when the arrest warrant was issued. Similarly, as discussed,
neither aggravated assault nor false imprisonment are included in section 803’s exclusive
list of specific offenses subject to tolling. (See § 803, subd. (a) [“Except as provided in
this section, a limitation of time prescribed in this chapter is not tolled or extended for
any reason”].) Likewise, although this is a “cold case” in which DNA evidence was used
to connect defendant with the offenses, the DNA-related tolling provisions of section
803, subdivision (g), only apply to certain sex offenses, and then only where the DNA
evidence “is analyzed ... no later than two years from the date of the offense.” (§ 803,
subd. (g)(1)(A), (B).)12
The Supreme Court’s concern in Williams was the lack of an adequate
record to resolve the statute of limitations issue on appeal. (Williams, supra, 21 Cal.4th
at p. 344.) Here, the record is more than adequate to conclude the pleadings facially
show the statute of limitations had expired on the assault and false imprisonment charges.
No special tolling allegations were pled or proven—indeed, none exists—and nothing in

12

Furthermore, even if defendant had been out of the state during the time
between the charged offenses and the warrant for his arrest was issued, section 803,
subdivision (d), which tolls the statute of limitations when a defendant is absent from the
state “when or after the offense is committed,” does not apply because it only tolls the
limitation statute for a maximum of three years—for a total limitation period in this case
of six years, and not the eight-plus years that elapsed between the offenses and the arrest
warrant. The remainder of section 803’s tolling provisions are also inapplicable.
24

J

♦

1

f

*

/1

1

f

4

- 4 «

the record shows defendant waived the statute of limitations. Remand in such
circumstances would be a futile act, and one we decline to do.
4. The Two Five-Year Enhancements Imposed on the Assault Charge Must Be Stricken
Finally, defendant contends his aggravated assault conviction was not for a
qualifying serious felony and, as a result, the two five-year serious felony enhancements
imposed on that charge under section 667, subdivision (a) could not be imposed.
Because the assault conviction has been reversed, however, those enhancements must be
stricken in any event; there is nothing left to “enhance.”
DISPOSITION
The convictions for aggravated assault and false imprisonment are reversed,
and the two section 667, subdivision (a) serious felony enhancements imposed on the
assault charge are vacated. In all other respects, the judgment is affirmed. The trial court
shall prepare an amended abstract of judgment and forward a certified copy to the
Department of Corrections and Rehabilitation.

THOMPSON, J.
WE CONCUR:

BEDSWORTH, ACTING P. J.

IKOLA, J.

25

Appendix &

•Y *

\

^1

J

i

i

i

!

’i

t

i

!

SUPREME COURT

NOV 1 0 2020
Court of Appeal, Fourth Appellate District, Division Three - No. 0056928^ Navarrete c|erk
S264897

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,

f" —

v.
ANTHONY EDWARD BRIDGET, Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
ChiefJustice

